No. 20A151

In the Supreme Court of the United States
RITESH TANDON, ET AL., Applicants,
v.
GAVIN NEWSOM, ET AL., Respondents.

CERTIFICATE OF ELECTRONIC SERVICE

I, Samuel T. Harbourt, Deputy Solicitor General, a member of the Bar of this
Court, hereby certify that on April 8, 2021, consistent with this Court’s order of April
15, 2020, and all parties’ consent, an electronic copy of Respondents’ Opposition to
Emergency Application for Writ of Injunction in the above-entitled case was served
by electronic mail upon:
Ryan J. Walsh
Eimer Stahl LLP
10 East Doty Street, Suite 800
Madison, WI 53703
rwalsh@eimerstahl.com

I further certify that all parties required to be served have been served.
/s/ Samuel T. Harbourt
SAMUEL T. HARBOURT
Deputy Solicitor General
Office of the Attorney General
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
Telephone: (415) 510-3919
Counsel for State Respondents

